     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106



October 21, 2009

Report Number: A-07-08-04137

Ms. Beryl Lowery-Born
Vice President of Finance and Chief Financial Officer
Blue Cross Blue Shield of Kansas
1133 SW. Topeka Boulevard
Topeka, Kansas 66629-0001

Dear Ms. Lowery-Born:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Wheatlands Administrative Services, Inc.’s Final
Administrative Cost Proposals for Fiscal Years 2005 Through 2008.” We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Debra Keasling, Audit Manager, at (816) 426-3213 or through email
at Debra.Keasling@oig.hhs.gov. Please refer to report number A-07-08-04137 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Beryl Lowery-Born

Direct Reply to HHS Action Official:

Ms. Deborah Taylor, Acting Director
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     REVIEW OF WHEATLANDS
 ADMINISTRATIVE SERVICES, INC.’S
   FINAL ADMINISTRATIVE COST
PROPOSALS FOR FISCAL YEARS 2005
         THROUGH 2008




                        Daniel R. Levinson
                         Inspector General

                          October 2009
                          A-07-08-04137
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contracts with
private organizations that process and pay Medicare claims (contractor).

CMS contracts provide for the reimbursement of allowable administrative costs incurred in
processing Medicare claims. In claiming costs, contractors must follow cost reimbursement
principles contained in the Federal Acquisition Regulation (FAR) and the Medicare contracts.
After the close of each fiscal year (FY), contractors submit a Final Administrative Cost Proposal
(FACP) reporting Medicare costs. Once CMS accepts an FACP, the contractor and CMS
negotiate a final settlement of allowable administrative costs.

CMS contracted with Wheatlands Administrative Services, Inc. (Wheatlands), to serve as a
Medicare contractor for processing Medicare Part A and Part B claims. Wheatlands, a wholly
owned subsidiary of Blue Cross Blue Shield of Kansas, Inc. (BCBSKS), is located in Topeka,
Kansas. Wheatlands processed the Medicare Part A claims for Kansas and the Medicare Part B
claims for Kansas, Nebraska, and northwestern Missouri. Wheatlands reported Medicare
administrative costs of $111,771,710 in its Part A and Part B FACPs for FYs 2005 through 2008.
(This amount included $10,087,572 in pension costs and postretirement benefits that are the
subject of a separate review; thus, we reviewed $101,684,138 in costs claimed.) Wheatlands’
Medicare contract ended February 29, 2008.

OBJECTIVE

Our objective was to determine (1) whether the FACPs presented fairly the costs of program
administration and (2) whether these costs were reasonable, allowable, and allocable in
accordance with part 31 of the FAR and the Medicare contracts.

SUMMARY OF FINDINGS

Wheatlands reported expenditures that substantially complied with the FAR and the Medicare
contracts insofar as the costs of program administration were concerned. However, of the
$101,684,138 in reviewed costs that Wheatlands claimed for Federal reimbursement in its Part A
and Part B FACPs for FYs 2005 through 2008, $416,360 was not allowable or allocable to the
Medicare program. Specifically, Wheatlands requested reimbursement in the FACPs for both
unsupported costs and unallocable costs.

RECOMMENDATION

We recommend that Wheatlands refund to the Federal Government $416,360 of unallowable
costs.



                                                i
AUDITEE COMMENTS

In written comments on our draft report, BCBSKS did not concur with our first finding regarding
unsupported costs, and said that it “is accepting” our second finding concerning unallocable
costs. With respect to our second finding, though, BCBSKS stated that $30,959 of the
questioned costs had already been adjusted as part of its annual review of executive
compensation.

BCBSKS’s written comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing BCBSKS’s written comments, we revised the amount of the questioned costs in
our finding and recommendation in this final report to reflect the $30,959 indicated in
BCBSKS’s comments. We maintain that our findings and recommendation, as revised, are
valid.




                                              ii
                                                 TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION.............................................................................................................…..1

          BACKGROUND ....................................................................................................…..1

          OBJECTIVE, SCOPE, AND METHODOLOGY ..................................................…..1
               Objective .....................................................................................................…..1
               Scope...........................................................................................................…..1
               Methodology ...............................................................................................…..2

FINDINGS AND RECOMMENDATION......................................................................…..2

          UNSUPPORTED COSTS ......................................................................................…..3
               Federal Requirements .................................................................................…..3
               Salaries and Wages .....................................................................................…..3

          UNALLOCABLE COSTS......................................................................................…..3
              Federal Requirements .................................................................................…..3
              Long-Term Incentives.................................................................................…..3

          RECOMMENDATION ..........................................................................................…..4

          AUDITEE COMMENTS........................................................................................…..4

          OFFICE OF INSPECTOR GENERAL RESPONSE .............................................…..5

APPENDIXES

          A – UNSUPPORTED COSTS AND UNALLOCABLE COSTS

          B – AUDITEE COMMENTS




                                                                  iii
                                            INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act established the Health Insurance for the Aged and
Disabled (Medicare) program, which provides for a hospital insurance program (Part A) and a
related supplementary medical insurance program (Part B). At the Federal level, the Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contracts with
private organizations that process and pay Medicare claims (contractor).

CMS contracts provide for the reimbursement of allowable administrative costs incurred in
processing Medicare claims. In claiming costs, contractors must follow cost reimbursement
principles contained in the Federal Acquisition Regulation (FAR) and the Medicare contracts. 1
After the close of each fiscal year (FY), contractors submit a Final Administrative Cost Proposal
(FACP) reporting Medicare costs. Once CMS accepts an FACP, the contractor and CMS
negotiate a final settlement of allowable administrative costs.

CMS contracted with Wheatlands Administrative Services, Inc. (Wheatlands), to serve as a
Medicare contractor for processing Medicare Part A and Part B claims. Wheatlands, a wholly
owned subsidiary of Blue Cross Blue Shield of Kansas, Inc. (BCBSKS), is located in Topeka,
Kansas. Wheatlands processed the Medicare Part A claims for Kansas and the Medicare Part B
claims for Kansas, Nebraska, and northwestern Missouri. Wheatlands reported Medicare
administrative costs of $111,771,710 in its Part A and Part B FACPs for FYs 2005 through 2008.
Wheatlands’ Medicare contract ended February 29, 2008.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine (1) whether the FACPs presented fairly the costs of program
administration and (2) whether these costs were reasonable, allowable, and allocable in
accordance with part 31 of the FAR and the Medicare contracts.

Scope

Our review covered the period October 1, 2004, through February 29, 2008 (FY 2005 through
the termination date of Wheatlands’ Medicare contract in FY 2008). For this period, Wheatlands
reported Medicare Part A and Part B costs totaling $111,771,710. This total included pension
costs and postretirement benefits of $10,087,572 that are the subject of a separate audit and that
we therefore excluded from this review. Thus, we reviewed $101,684,138 of administrative
costs.




1
 The development of the FAR system is in accordance with the requirements of the Office of Federal Procurement
Policy Act of 1974 (P.L. No. 93-400, as amended by P.L. No. 96-83).


                                                       1
We did not review the overall internal control structure at Wheatlands because our objective did
not require us to do so. However, we reviewed the internal controls that Wheatlands had in place
to allocate costs to cost objectives in accordance with the FAR and the Medicare contracts.

We conducted fieldwork at Wheatlands’ office in Topeka, Kansas, from September 2008 through
February 2009.

METHODOLOGY

To accomplish our objective, we:

      reviewed applicable Medicare laws, regulations, and guidelines; the applicable sections
       of the FAR; and Wheatlands’ contract with CMS;

      reviewed calendar years 2005 through 2007 independent auditor’s reports;

      reconciled the FACPs to Wheatlands’ accounting records;

      judgmentally selected and reviewed invoices, expense vouchers and reports, and journal
       entries;

      interviewed Wheatlands officials about their cost accumulation processes for cost
       proposals and gained an understanding of Wheatlands’ cost allocation systems;

      reviewed payroll journals, corporate bonus plans, and personnel records;

      tested costs for reasonableness, allowability, and allocability; and

      provided Wheatlands officials with detail data on the unsupported and unallocable costs
       (discussed below) on May 26, 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

Wheatlands reported expenditures that substantially complied with the FAR and the Medicare
contracts insofar as the costs of program administration were concerned. However, of the
$101,684,138 in reviewed costs that Wheatlands claimed for Federal reimbursement in its Part A
and Part B FACPs for FYs 2005 through 2008, $416,360 was not allowable or allocable to the
Medicare program. Specifically, Wheatlands requested reimbursement in the FACPs for both
unsupported costs and unallocable costs.



                                                 2
UNSUPPORTED COSTS

Federal Requirements

Pursuant to FAR 31.201-2(d):

       A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to
       demonstrate that costs claimed have been incurred, are allocable to the contract,
       and comply with applicable cost principles in this subpart and agency
       supplements. The contracting officer may disallow all or part of a claimed cost
       that is inadequately supported.

Salaries and Wages

Wheatlands reported $14,220,051 for the salaries and wages cost category in its FY 2007 Part B
FACP. However, Wheatlands’ records for FY 2007 supported salaries and wages of only
$13,908,219. Thus, for FY 2007 Wheatlands reported $311,832 more in its Part B FACP for
salaries and wages than was supported by its records. The $311,832 was unallowable for Federal
reimbursement because this amount was not supported by documentation as mandated by FAR
31.201-2(d). See Appendix A.

UNALLOCABLE COSTS

Federal Requirements

Pursuant to FAR 31.201-4:

       A cost is allocable if it is assignable or chargeable to one or more cost objectives
       on the basis of relative benefits received or other equitable relationship. Subject
       to the foregoing, a cost is allocable to a Government contract if it—

              (a) Is incurred specifically for the contract;

              (b) Benefits both the contract and other work, and can be distributed to
                  them in reasonable proportion to the benefits received; or

              (c) Is necessary to the overall operation of the business, although a direct
                  relationship to any particular cost objective cannot be shown.

Long-Term Incentives

According to BCBSKS officials, the BCBSKS Long-Term Incentive (LTI) plan provided an
opportunity for aligning BCBSKS Board of Directors-approved corporate performance goals
with a payout opportunity for the achievement of those goals. Further, according to BCBSKS
officials, this program motivated participants (that is, BCBSKS executives) to create long-term



                                                 3
value for BCBSKS and its constituents, to measure elements of value creation that participants
could impact, and to provide a compensation vehicle to support BCBSKS’s recruitment and
retention efforts.

Accordingly, the LTI plan was a performance plan through which BCBSKS paid cash awards for
the achievement of company performance goals over a 3-year period. At the beginning of each
3-year performance period, the BCBSKS Board of Directors approved performance goals as well
as the threshold, target, and maximum levels for each performance goal. New 3-year
performance plans began each year, establishing an overlapping or rolling cycle for performance
measurement and payouts. For example, a 3-year cycle beginning in 2005 ended on
December 31, 2007, and BCBSKS paid cash awards in 2008; the next cycle began in 2006,
ended on December 31, 2008, and BCBSKS paid cash awards in 2009; etc.

We determined that the goals of the LTI plan benefitted BCBSKS, but this performance plan did
not benefit Wheatlands and therefore was not allocable to the Medicare contract. For FYs 2005
through 2007, BCBSKS allocated $104,528 ($19,782 in Medicare Part A funds and $84,746 in
Medicare Part B funds; see Appendix A) to the Medicare contract for the LTI plan. (These
amounts reflect the fact that BCBSKS adjusted the LTI for $30,959 based on its annual review of
executive compensation.) These costs were not allocable to Medicare and were therefore not
allowable for Federal reimbursement because the costs were not incurred specifically for the
Medicare contract, did not benefit the Medicare contract, and were not necessary to the overall
operation of Wheatlands in its processing of Medicare Part A and Part B claims.

There were several other incentive and bonus programs to reward executives and employees for
achieving various goals.

RECOMMENDATION

We recommend that Wheatlands refund to the Federal Government $416,360 of unallowable
costs.

AUDITEE COMMENTS

In written comments on our draft report, BCBSKS did not concur with our first finding regarding
unsupported costs, and said that it “is accepting” our second finding concerning unallocable
costs.

With respect to our first finding, BCBSKS stated that:

       After reviewing the OIG [Office of Inspector General] prepared reconciliation,
       BCBSKS determined that the Salaries and Wages related to Overhead and G&A
       [General and Administrative] [costs] incurred after December 2006 reported on
       the Cost Classification section of the FACP were not included in the OIG totals
       for Salaries and Wages. This is why it appears these costs are overstated for the
       OIG FACP workpapers.




                                                4
With respect to our second finding, BCBSKS stated:

       BCBSKS management made the decision to remove LTI from Medicare
       allocations beginning in January 2007. Therefore, BCBSKS is accepting this
       finding to be consistent with its own subsequent decision. However, $30,959 of
       this LTI had already been adjusted as part of the annual review of executive
       compensation. . . . Based on this adjustment, BCBSKS agrees that $104,528
       should be decreased from the total expenses claimed on the FACPs for
       FY05-FY08.

BCBSKS’s written comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing BCBSKS’s written comments, we revised the amount of the questioned costs in
our finding and recommendation in this final report to reflect the $30,959 indicated in
BCBSKS’s comments. We maintain that our findings and recommendation, as revised, are
valid.

With respect to BCBSKS’s more specific comments:

In developing our first finding regarding unsupported costs, we included Overhead and General
and Administrative costs incurred for FY 2007. The requested detail information that BCBSKS
provided to us did not separately and distinctly identify costs representing salaries and wages
delineated by FY or by Medicare Part A or Medicare Part B costs. Thus, we were not able to
separately identify Overhead and General and Administrative costs. Because BCBSKS provided
us with only combined costs rather than separately identified costs, it did not adequately support
its claimed costs and, for that reason, was not fulfilling the requirement placed upon it by FAR
31.201-2(d), which states: “The contracting officer may disallow all or part of a claimed cost
that is inadequately supported.” Therefore, we continue to recommend that BCBSKS refund the
$311,832 in unsupported costs to CMS.

After reviewing BCBSKS’s written comments concerning our second finding, we agree with
BCBSKS and for this final report have revised our finding and recommendation to account for
the $30,959 already adjusted by BCBSKS.




                                                5
APPENDIXES
             APPENDIX A – UNSUPPORTED COSTS AND UNALLOCABLE COSTS

                                            UNSUPPORTED COSTS
                                              Salaries and Wages

        Fiscal Year              Medicare Part A      Medicare Part B    Total
           2007                                         $311,832        $311,832


                                            UNALLOCABLE COSTS
                                             Long-Term Incentives

        Fiscal Year              Medicare Part A      Medicare Part B     Total
           2005                      $8,547              $37,220         $45,768
           2006                       8,885                38,955         47,840
           2007                        2,350                8,571         10,921
           Total                    $19,782              $84,746        $104,528 1




1
    There will be a variance due to rounding.
                 APPENDIX B: AUDITEE COMMENTS 




                HlueCross                   IJll SWT<>p<'ko   _"""r<l
                                            T"!"'k. , "'..... iS66l?-OOQ!
                                                                                In T!>p<']" - (711~) ;!91·7000
                                                                                I~   Ko...... _ (tlOO)   ~ 3Z-0216
                BlueShield
                ol'Kausas

 1uly31,2oo9


 Mr. Patrick Cogley
 Office of Inspector General 

 Offices of Audit Services 

 Region VII - Room 284A 

 601 East 12'" Street 

 Kansas City. MO 64106 


 Dear Mr. Cogley,

 This letter sets out the rellised response of Blue Cross and Blue Shield of Kansas (BCI3SKS) to
 the luly 2. 2009 draft of the U.S. Department of Health and Human Services, Office of
 Inspector General (DIG) draft report A-07-08-041]7 entided "Review of Wheat lands
 Administrative Services, Inc.'s Final Admi nistrative COS! Proposals for Fiscal Years 2005
 Through 2008."

 Conuncn!!; regarding each finding are as follows:

 I) Unsupported Costs - Salaries and Wages: Blue Cross and Blue Shield of Kansas does not
 concur with th is finding . OIG claims thaI Blue Cross reported $3 I J ,832 of Salaries & Wages
 thaI arc unsupported and consequent!y, WlalJowable. Ulue Cross disagrees WI!h this finding.
 BCBSKS provided OIG wilh a reconciliation of tolal costs per the General Ledger compared 10
 the costs reported on the FACPs for all fiscal years being audited, including FY07 for Medicare
 Pan 13. After reviewing the OIG prepared reconciliation, BCBSKS detennincd that the Salaries
 ami Wages related to Overhead and G&A incurred after December 2006 reported on !he Cost
 Classification section of the FACP were not included in the OIG lotals for Sa/aries and Wages.
 This is why it appears these COStS arc overstated for the OIG FACP workpapers.

 2) Unallocable Costs - Long Tenn Incentives: The Long Tenn incentive (LTI) finding is
 attributable to incentives allocated from January 2005 through December 2006. BCBSKS
 management made the decision [0 remove LTI from Medicare allocations beginning in January
 2007. Therefore, BCBSKS is accepting [his finding [0 be consistent with ilS own subsequent
 decision. However, $30.959 of this LTI had already been adjusted as pan of the annual review
 of execulive compensation. Annually, total compensation for executives is revicwed in order to
 ensure Ihat BCBSKS has nO! charged mo rc compensation than is allowable based on CMS
 guidelines. Based on this adjustmcnt, BCBSKS agrees that S 104,528 should be decreased from
 the total expenses claimed on the FACPs for FY05-FY08.

 We are available at your requesl for further discussion and review 10 resolve Ihese finding.;;.


~'P""f"I~'Y ~
~" ,,\
~
           - uJ
Beryl :,~ery- Bom 

Vice President of Finance and Chief Financial Officcr 

